                                                                         FY 2010 OIG Recovery Act Plan Overview
                                                                                              (updated May 2010)
                                        OIG Name: Department of State (including the U.S. Section of the International Boundary and Water Commission (USIBWC)


                                                   The overall objectives of OIG's oversight of Department of State Recovery Act funds are to ensure: 1) timely, effective implementation of Recovery Act projects
                                                   and activities in compliance with ARRA requirements; 2) timely, accurate reporting on the use of Recovery Act funds and the progress of ARRA-funded projects
                     OIG Broad Recovery Act Goals:
                                                   and activities; 3) establishment of proper internal control procedures to mitigate instances of fraud, waste, error, and abuse; and 4) confirmation that
                                                   contractors and other fund recipients meet eligibility requirements and comply with award requirements.
                                                OIG has initiated an ongoing dialogue with Department and USIBWC managers and coordinators responsible for Recovery Act implementation, providing
                                                targeted information on fraud awareness, contract/procurement best practices, and internal controls. Hotline posters and publications and OIG's Internet and
   OIG Broad Training and Outreach Recovery Act intranet Web sites are being updated to highlight and facilitate Hotline reporting of waste, fraud, abuse, and mismanagement related to the Recovery Act
                                         Goals: funding and projects. Fraud awareness briefings are being expanded and focused to highlight fraud indicators and vulnerabilities specific to Recovery Act. OIG is
                                                an active participant in RATB Working Group activities and coordinates across the Inspector General and oversight communities on Recovery Act oversight
                                                initiatives.

                                                To ensure effective identification, monitoring, and mitigation of the major financial and programmatic risks related to Recovery Act funds, OIG has met with
                                                senior managers responsible for Department ARRA coordination and individual bureaus receiving Recovery Act funds to gain an understanding of the
                                                Department's implementation plans and determine where control weaknesses may exist. OIG holds periodic consulta-tions with the Office of the Under
                                                Secretary for Management (M/PRI) and the Chief Financial Officer (CFO) to coordinate overall Recovery Act oversight, including the receipt of regular reports on
      OIG Recovery Act Risk Assessment Process:
                                                the current status of funds obligated and expended. Based on these consultations, information provided by the Department and IBWC, and an internal analysis
                                                of the Department and IBWC implementation plans, OIG has identified the most significant programs upon which to focus its oversight efforts. Initial oversight
                                                projects include audits and inspections to: 1) assess the overall controls that the Department and USIBWC have in place to track and report Recovery Act funds,
                                                and 2) highlight key challenges, including the adequacy of procurement personnel, facing the Department in overseeing ARRA-funded programs and projects.


                         OIG Recovery Act Funds: $2,000,000
      Expiration Date of OIG Recovery Act Funds: 30-Sep-10


  OIG Recovery Act Funds Allocated to Contracts: Yes

                                                    Contractors will be used to augment existing OIG staff, as necessary, and to provide specialized subject matter expertise not available in-house (e.g., architects
              Purpose of Recovery Act Contracts:
                                                    and engineers).
     Types of Recovery Act Contracts Awarded to
                                                OIG has awarded 10 contracts to conduct performance audits and other reviews of Department and USIBWC ARRA-funded projects.
                                          Date:

             Link to OIG Recovery Act Work Plan: http://oig.state.gov/arra/plansreports/index.htm




Page 1 of Overview                                                                                                                                                               State OIG Recovery Act Work Plan FINAL Oct 2010.xlsx
                                                                                                            OIG FY 2010 Recovery Act Work Plan
                                                                                                                           (updated December 2010)
                                                                                                                                                                                                                                 Review Included    Expected        Expected
                                  Recovery Act Funds                                                                                                                                                                                                                                  Expected
                                                                          Entity Performing                                                                                                                                          on Prior        Quarter        Quarter(s)
    Agency       Program Area         Associated         Type of Review                             Project Title                            Background                                           Objective                                                                          Number of
                                                                               Review                                                                                                                                             Recovery Act        Work           Reports
                                   w/Program Area                                                                                                                                                                                                                                      Reports
                                                                                                                                                                                                                                   Plan (Y/N)        Begins           Issued
                                                                                                                          Total project cost is $105.5 million, of which $70   For A&E and other contracts: Were funds
                                                                                                                          million is from ARRA funds. ARRA and other           awarded and distributed in a prompt, fair, and
                                                                                                                          Department funds will be used to develop a           reasonable manner? Was a small business plan
                                                                                                                          master plan and an Architectural & Engineering       developed (including cost sharing arrangements)
                                                                                                                          (A&E) study to frame the project scope cost and      and were awards made competitively and based
                                                                                                                          timelines. After the scope and timelines have        on the plan? Were the recipients and uses of all
                                                                                                                          been established then open source competitions       funds are transparent to the public, and were the
                                                                                                                          will be used for site selection and contract         public benefits of these funds reported clearly,
                                                                                                                          awards.                                              accurately, and in a timely manner? Has the
                                                                                                                                                                               program assessed and identified the risks
                                                                                                                                                                               associated with the projects receiving Recovery
                                                                                              Audit of Hard Skills                                                             Act funding and communicated the results to the
               Bureau of                                                                      Training Center                                                                  Department? Were funds used for authorized
                                                       Administrative /
 State Dept.   Diplomatic         $70 million                             Contractor          Construction -- Site                                                             purposes? Has the program taken action to         Yes               Qtr. III 2010 Qtr. III 2011 1
                                                       Financial
               Security                                                                       Development and                                                                  identify and mitigate instances of fraud, waste,
                                                                                              Contract Competition                                                             error, and abuse? Were established schedules
                                                                                                                                                                               monitored and delays properly justified? Were
                                                                                                                                                                               cost overruns and unnecessary delays avoided
                                                                                                                                                                               and lessons learned identified to prevent
                                                                                                                                                                               reoccurrence? Were program goals and specific
                                                                                                                                                                               program outcomes achieved? Were Department
                                                                                                                                                                               standard processes and procedures for
                                                                                                                                                                               construction of facilities followed? Is there
                                                                                                                                                                               verification that contractors and other fund
                                                                                                                                                                               recipients met eligibility requirements and
                                                                                                                                                                               complied with award requirements?

                                                                                                                          The Department is constructing five new passport     For each of the five locations: Were funds
                                                                                                                          agencies (Vermont, Buffalo, El Paso, Atlanta, and    awarded and distributed in a prompt, fair, and
                                                                                                                          San Diego) and expanding two existing locations      reasonable manner? Was a small business plan
                                                                                                                          (Portsmouth and Hot Springs), at a total cost of     developed (including cost sharing arrangements)
                                                                                                                          $15 million.                                         and were awards made competitively and based
                                                                                                                                                                               on the plan? Were the recipients and uses of all
                                                                                                                                                                               funds are transparent to the public, and were the
                                                                                                                                                                               public benefits of these funds reported clearly,
                                                                                                                                                                               accurately, and in a timely manner? Has the
                                                                                                                                                                               program assessed and identified the risks
                                                                                                                                                                               associated with the projects receiving Recovery
                                                                                                                                                                               Act funding and communicated the results to the
                                                                                                                                                                               Department? Were funds used for authorized
               Bureau of                               Administrative /                       Audit of Consular Affairs
 State Dept.                      $15 million                             Contractor                                                                                           purposes? Has the program taken action to         Yes               Qtr. III 2010 Qtr. III 2011 1
               Consular Affairs                        Financial                              Passport Facilities
                                                                                                                                                                               identify and mitigate instances of fraud, waste,
                                                                                                                                                                               error, and abuse? Were established schedules
                                                                                                                                                                               monitored and delays properly justified? Were
                                                                                                                                                                               cost overruns and unnecessary delays avoided
                                                                                                                                                                               and lessons learned identified to prevent
                                                                                                                                                                               reoccurrence? Were program goals and specific
                                                                                                                                                                               program outcomes achieved? Were Department
                                                                                                                                                                               standard processes and procedures for
                                                                                                                                                                               construction of facilities followed? Is there
                                                                                                                                                                               verification that contractors and other fund
                                                                                                                                                                               recipients met eligibility requirements and
                                                                                                                                                                               complied with award requirements?




Page 1 of Work Plan                                                                                                                                                                                                                                 State OIG Recovery Act Work Plan FINAL Oct 2010.xlsx
                                                                                                           OIG FY 2010 Recovery Act Work Plan
                                                                                                                         (updated December 2010)
                                                                                                                                                                                                                                  Review Included    Expected        Expected
                                 Recovery Act Funds                                                                                                                                                                                                                                    Expected
                                                                         Entity Performing                                                                                                                                            on Prior        Quarter        Quarter(s)
    Agency       Program Area        Associated         Type of Review                             Project Title                           Background                                              Objective                                                                          Number of
                                                                              Review                                                                                                                                               Recovery Act        Work           Reports
                                  w/Program Area                                                                                                                                                                                                                                        Reports
                                                                                                                                                                                                                                    Plan (Y/N)        Begins           Issued
                                                                                                                       The Department is constructing and/or renovating Were funds awarded and distributed in a prompt,
                                                                                                                       classrooms and providing other infrastructure    fair, and reasonable manner? Was a small
                                                                                                                       upgrades.                                        business plan developed (including cost sharing
                                                                                                                                                                        arrangements) and were awards made
                                                                                                                                                                        competitively and based on the plan? Were the
                                                                                                                                                                        recipients and uses of all funds are transparent to
                                                                                                                                                                        the public, and were the public benefits of these
                                                                                                                                                                        funds reported clearly, accurately, and in a timely
                                                                                                                                                                        manner? Has the program assessed and identified
                                                                                                                                                                        the risks associated with the projects receiving
                                                                                                                                                                        Recovery Act funding and communicated the
                                                                                                                                                                        results to the Department? Were funds used for
              National Foreign                                                               Audit of National Foreign                                                  authorized purposes? Has the program taken
                                                      Administrative /
  State Dept. Affairs Training   $5 million                              Contractor          Affairs Training Center                                                    action to identify and mitigate instances of fraud, Yes                     Qtr. III 2010 Qtr. II 2011 1
                                                      Financial
              Center                                                                         Construction projects                                                      waste, error, and abuse? Were established
                                                                                                                                                                        schedules monitored and delays properly
                                                                                                                                                                        justified? Were cost overruns and unnecessary
                                                                                                                                                                        delays avoided and lessons learned identified to
                                                                                                                                                                        prevent reoccurrence? Were program goals and
                                                                                                                                                                        specific program outcomes achieved? Were
                                                                                                                                                                        Department standard processes and procedures
                                                                                                                                                                        for construction of facilities followed? Is there
                                                                                                                                                                        verification that contractors and other fund
                                                                                                                                                                        recipients met eligibility requirements and
                                                                                                                                                                        complied with award requirements?


                                                                                                                        The data center program will build an enterprise       A report will be issued for the four centers and a
                                                                                                                        data center in the western U.S. and consolidate all    capping report on audit results and an additional
                                                                                                                        domestic Department servers into four enterprise       objective identifying barriers to the centers. In
                                                                                                                        data centers in the U.S. The program will provide      addition, we will review planning for potential
                                                                                                                        a highly available, scalable, and redundant data       future project phases and determine the impact if
                                                                                                                        center infrastructure that will substantially reduce   future funding is not forthcoming. Specific
                                                                                                                        the Department's risk of IT failure and provide for    objectives include: Were funds awarded and
                                                                                                                        future IT growth. Construction for the facilities      distributed in a prompt, fair, and reasonable
                                                                                                                        should begin about September 2011 for 18               manner? Was a small business plan developed
                                                                                                                        months, and the centers should begin operations        (including cost sharing arrangements) and were
                                                                                                                        about May 2012.                                        awards made competitively and based on the
                                                                                                                                                                               plan? Were the recipients and uses of all funds
              Bureau of                                                                                                                                                        are transparent to the public, and were the public
                                                      Administrative /                       Audit of Enterprise Data
  State Dept. Information        $120 million                            Contractor                                                                                            benefits of these funds reported clearly,          Yes               Qtr. III 2010 Qtr. II 2011 1
                                                      Financial                              Center Program
              Resources                                                                                                                                                        accurately, and in a timely manner? Has the
                                                                                                                                                                               program assessed and identified the risks
                                                                                                                                                                               associated with the projects receiving Recovery
                                                                                                                                                                               Act funding and communicated the results to the
                                                                                                                                                                               Department? Were funds used for authorized
                                                                                                                                                                               purposes? Has the program taken action to
                                                                                                                                                                               identify and mitigate instances of fraud, waste,
                                                                                                                                                                               error, and abuse? Were established schedules
                                                                                                                                                                               monitored and delays properly justified? Were
                                                                                                                                                                               cost overruns and unnecessary delays avoided
                                                                                                                                                                               and lessons learned identified to prevent
                                                                                                                                                                               reoccurrence? Were program goals and specific
                                                                                                                                                                               program outcomes achieved? Were Department




Page 2 of Work Plan                                                                                                                                                                                                                                  State OIG Recovery Act Work Plan FINAL Oct 2010.xlsx
                                                                                                          OIG FY 2010 Recovery Act Work Plan
                                                                                                                       (updated December 2010)
                                                                                                                                                                                                                               Review Included    Expected        Expected
                                Recovery Act Funds                                                                                                                                                                                                                                  Expected
                                                                        Entity Performing                                                                                                                                          on Prior        Quarter        Quarter(s)
    Agency       Program Area       Associated         Type of Review                             Project Title                          Background                                            Objective                                                                           Number of
                                                                             Review                                                                                                                                             Recovery Act        Work           Reports
                                 w/Program Area                                                                                                                                                                                                                                      Reports
                                                                                                                                                                                                                                 Plan (Y/N)        Begins           Issued
                                                                                                                      The Department will replace antiquated               Were funds awarded and distributed in a prompt,
                                                                                                                      telephone systems at a number of overseas            fair, and reasonable manner? Was a small
                                                                                                                      diplomatic missions. Many of the current systems     business plan developed (including cost sharing
                                                                                                                      are 13-15 years old and have been expanded to        arrangements) and were awards made
                                                                                                                      maximum capacity. In addition, systems have          competitively and based on the plan? Were the
                                                                                                                      experienced increased maintenance requirements       recipients and uses of all funds are transparent to
                                                                                                                      by qualified technicians at significant cost. This   the public, and were the public benefits of these
                                                                                                                      replacement will bring the Department closer to      funds reported clearly, accurately, and in a timely
                                                                                                                      achieving the industry standard life-cycle           manner? Has the program assessed and identified
                                                                                                                      replacement of 10 years.                             the risks associated with the projects receiving
                                                                                                                                                                           Recovery Act funding and communicated the
                                                                                                                                                                           results to the Department? Were funds used for
              Bureau of                                                                     Audit of the Diplomatic                                                        authorized purposes? Has the program taken
                                                     Administrative /
  State Dept. Information       $10 million                             OIG Staff           Facility Telephone                                                             action to identify and mitigate instances of fraud, Yes               Qtr. III 2010 Qtr. II 2011 1
                                                     Financial
              Resources                                                                     Systems Replacement                                                            waste, error, and abuse? Were established
                                                                                                                                                                           schedules monitored and delays properly
                                                                                                                                                                           justified? Were cost overruns and unnecessary
                                                                                                                                                                           delays avoided and lessons learned identified to
                                                                                                                                                                           prevent reoccurrence? Were program goals and
                                                                                                                                                                           specific program outcomes achieved? Were
                                                                                                                                                                           Department standard processes and procedures
                                                                                                                                                                           for construction of facilities followed? Is there
                                                                                                                                                                           verification that contractors and other fund
                                                                                                                                                                           recipients met eligibility requirements and
                                                                                                                                                                           complied with award requirements?


                                                                                                                      The Department is initiating a major program to      Were funds awarded and distributed in a prompt,
                                                                                                                      reduce the potential for successful cyber attacks    fair, and reasonable manner? Was a small
                                                                                                                      against the Department and overseas against the      business plan developed (including cost sharing
                                                                                                                      foreign affairs community. The program will fund     arrangements) and were awards made
                                                                                                                      technical initiatives to strengthen the              competitively and based on the plan? Were the
                                                                                                                      Department's infrastructure network to better        recipients and uses of all funds are transparent to
                                                                                                                      protect information on U.S. citizens and national    the public, and were the public benefits of these
                                                                                                                      security. In addition, the Department plans to       funds reported clearly, accurately, and in a timely
                                                                                                                      initiate a number of computer security system        manner? Has the program assessed and identified
                                                                                                                      enhancements worldwide.                              the risks associated with the projects receiving
                                                                                                                                                                           Recovery Act funding and communicated the
                                                                                                                                                                           results to the Department? Were funds used for
              Bureau of                                                                                                                                                    authorized purposes? Has the program taken
                                                     Administrative /                       Audit of Department of
  State Dept. Information       $64.2 million                           Contractor                                                                                         action to identify and mitigate instances of fraud, Yes               Qtr. III 2010 Qtr. III 2011 2
                                                     Financial                              State Computer Security
              Resources                                                                                                                                                    waste, error, and abuse? Were established
                                                                                                                                                                           schedules monitored and delays properly
                                                                                                                                                                           justified? Were cost overruns and unnecessary
                                                                                                                                                                           delays avoided and lessons learned identified to
                                                                                                                                                                           prevent reoccurrence? Were program goals and
                                                                                                                                                                           specific program outcomes achieved? Were
                                                                                                                                                                           Department standard processes and procedures
                                                                                                                                                                           for construction of facilities followed? Is there
                                                                                                                                                                           verification that contractors and other fund
                                                                                                                                                                           recipients met eligibility requirements and
                                                                                                                                                                           complied with award requirements?




Page 3 of Work Plan                                                                                                                                                                                                                               State OIG Recovery Act Work Plan FINAL Oct 2010.xlsx
                                                                                                         OIG FY 2010 Recovery Act Work Plan
                                                                                                                     (updated December 2010)
                                                                                                                                                                                                                              Review Included    Expected        Expected
                                Recovery Act Funds                                                                                                                                                                                                                                 Expected
                                                                        Entity Performing                                                                                                                                         on Prior        Quarter        Quarter(s)
    Agency       Program Area       Associated         Type of Review                            Project Title                         Background                                             Objective                                                                           Number of
                                                                             Review                                                                                                                                            Recovery Act        Work           Reports
                                 w/Program Area                                                                                                                                                                                                                                     Reports
                                                                                                                                                                                                                                Plan (Y/N)        Begins           Issued
                                                                                                                    The Department will replace antiquated                Were funds awarded and distributed in a prompt,
                                                                                                                    computers used to process classified and              fair, and reasonable manner? Was a small
                                                                                                                    unclassified information domestically and at 285      business plan developed (including cost sharing
                                                                                                                    overseas embassies and consulates. The primary        arrangements) and were awards made
                                                                                                                    goal will be to bring the Department’s desktop        competitively and based on the plan? Were the
                                                                                                                    computers up to the required standards to             recipients and uses of all funds are transparent to
                                                                                                                    execute the diplomatic mission worldwide. The         the public, and were the public benefits of these
                                                                                                                    new computers and expanded services will              funds reported clearly, accurately, and in a timely
                                                                                                                    increase operational efficiencies, lower overall      manner? Has the program assessed and identified
                                                                                                                    maintenance costs, and strengthen the security        the risks associated with the projects receiving
                                                                                                                    posture for computer systems throughout the           Recovery Act funding and communicated the
                                                                                                                    Department.                                           results to the Department? Were funds used for
               Bureau of                                                                                                                                                  authorized purposes? Has the program taken
                                                     Administrative /                       Audit of Desktop
 State Dept.   Information      $13 million                             OIG Staff                                                                                         action to identify and mitigate instances of fraud, Yes               Qtr. III 2010 Qtr. II 2011 1
                                                     Financial                              Computer Replacements
               Resources                                                                                                                                                  waste, error, and abuse? Were established
                                                                                                                                                                          schedules monitored and delays properly
                                                                                                                                                                          justified? Were cost overruns and unnecessary
                                                                                                                                                                          delays avoided and lessons learned identified to
                                                                                                                                                                          prevent reoccurrence? Were program goals and
                                                                                                                                                                          specific program outcomes achieved? Were
                                                                                                                                                                          Department standard processes and procedures
                                                                                                                                                                          for construction of facilities followed? Is there
                                                                                                                                                                          verification that contractors and other fund
                                                                                                                                                                          recipients met eligibility requirements and
                                                                                                                                                                          complied with award requirements?


                                                                                                                    This project will provide technological               The overall objective is to evaluate Department
                                                                                                                    improvements to the Department of State Mobile        plans, risk assessment of information assets, and
                                                                                                                    Computing platform, increase the number of            justifications to fund the Mobile Computing
                                                                                                                    employees that have mobile access, and ensure         Program that will provide technological
                                                                                                                    continuity of operations for services such as         improvements to the Department’s worldwide
                                                                                                                    Passport, Visa, and American Citizen Services. This   Mobile Computing platform.
                                                                                                                    project contains two parallel initiatives designed
                                                                                            Audit of Improvements   to expand remote access beyond the current
               Bureau of
                                                     Administrative /                       to the Department of    16,000 employees. The first initiative will provide
 State Dept.   Information      $10.5 million                           Contractor                                                                                                                                            Yes               Qtr. III 2010 Qtr. III 2011 1
                                                     Financial                              State's Mobile          all new direct-hire employees (approximately
               Resources
                                                                                            Computing Platform      5,000) remote access capabilities in FY 2009 using
                                                                                                                    the current systems. The second initiative will
                                                                                                                    overhaul the existing Mobile Computing platform
                                                                                                                    to provide full access to the Department of State’s
                                                                                                                    unclassified resources and applications.




Page 4 of Work Plan                                                                                                                                                                                                                              State OIG Recovery Act Work Plan FINAL Oct 2010.xlsx
                                                                                                             OIG FY 2010 Recovery Act Work Plan
                                                                                                                          (updated December 2010)
                                                                                                                                                                                                                                Review Included    Expected        Expected
                                   Recovery Act Funds                                                                                                                                                                                                                                Expected
                                                                           Entity Performing                                                                                                                                        on Prior        Quarter        Quarter(s)
    Agency       Program Area          Associated         Type of Review                             Project Title                          Background                                           Objective                                                                          Number of
                                                                                Review                                                                                                                                           Recovery Act        Work           Reports
                                    w/Program Area                                                                                                                                                                                                                                    Reports
                                                                                                                                                                                                                                  Plan (Y/N)        Begins           Issued
                                                                                                                        In previous audit work on Department                  The audit will test the FPDS-Next Generation (NG)
                                                                                                                        procurement and reporting procedures, an              certifications and will focus on the most recent
                                                                                                                        independent public accounting firm determined         information available. Department guidelines
                                                                                                                        that Department contracts funded by the               state that all procurement actions must be
                                                                                                                        Recovery Act were not accurately reported to the      finalized in FPDS within 3 days of award. Specific
                                                                                                                        Federal Procurement Data System (FPDS).               objectives include: Were funds awarded and
                                                                                                                        Therefore, data quality standards have not been       distributed in a prompt, fair, and reasonable
                                                                                                                        met in accordance with the Recovery Act and the       manner? Was a small business plan developed
                                                                                                                        Federal Acquisition Regulation (FAR). According to    (including cost sharing arrangements) and were
                                                                                               Audit of the Department
                                                                                                                        the Recovery Act, and consistent with the FAR, all    awards made competitively and based on the
                                                                                               of State Compliance with
                                                                                                                        Federal award data must be publicly accessible,       plan? Were the recipients and uses of all funds
                                                                                               Federal Procurement
                                                                                                                        including all contract actions exceeding the micro-   are transparent to the public, and were the public
                                                                                               Data System Reporting
                                                                                                                        purchase threshold, and any modifications to          benefits of these funds reported clearly,
                                                        Administrative /                       Requirements for
 State Dept.   Dept-wide          $600 million                             Contractor                                   those actions that change previously reported         accurately, and in a timely manner? Has the        No               Qtr. III 2010 Qtr. II 2011 1
                                                        Financial                              Funding provided
                                                                                                                        contract action report data, regardless of dollar     program assessed and identified the risks
                                                                                               through the American
                                                                                                                        value and not specifically excluded in FAR 4.606.     associated with the projects receiving Recovery
                                                                                               Recovery and
                                                                                                                        The Department's Chief Financial Officer has          Act funding and communicated the results to the
                                                                                               Reinvestment Act of
                                                                                                                        requested this work.                                  Department? Were funds used for authorized
                                                                                               2009
                                                                                                                                                                              purposes? Has the program taken action to
                                                                                                                                                                              identify and mitigate instances of fraud, waste,
                                                                                                                                                                              error, and abuse? Were established schedules
                                                                                                                                                                              monitored and delays properly justified? Were
                                                                                                                                                                              cost overruns and unnecessary delays avoided
                                                                                                                                                                              and lessons learned identified to prevent
                                                                                                                                                                              reoccurrence? Were program goals and specific
                                                                                                                                                                              program outcomes achieved? Were Department
                                                                                                                                                                              standard processes and procedures for
                                                                                                                         The U.S. Section of the International Boundary       This audit will evaluate contractor and other sub-
                                                                                                                         and Water Commission (USIBWC) received $220          recipient compliance with Recovery Act provisions
                                                                                                                         million in ARRA funds. These funds are planned       for labor and financial management requirements
                                                                                                                         for upgrading the Rio Grande Flood Control           for IBWC construction contracts. A series of
                                                                                                                         System infrastructure along 506 miles of flood       contracts will be audited by multiple Independent
                                                                                               Audits of the             control levees maintained by USIBWC along the        Government Accountants (Certified Public
                                                                                               International Boundary    Upper and Lower Rio Grande River.                    Accountants) to verify that contrators and other
                                                                                               and Water Commission:                                                          fund recipents meet eligibility requirements and
               U.S. Section of the
                                                                                               Contractor and Other                                                           comply with award requirements including the
               International
                                                        Administrative /                       Sub-Recipient                                                                  adequacy of documentation for 1) Buy American                                       Qtrs. II and
 State Dept.   Boundary and        $220 million                            Contractor                                                                                                                                            No               Qtr. III 2010                    9
                                                        Financial                              Compliance with                                                                requirements under Section 1605 of the Recovery                                     III 2011
               Water
                                                                                               Recovery Act Provisions                                                        Act, 2) Davis-Bacon Act wage requirements under
               Commission
                                                                                               for Labor and Financial                                                        Section 1606 of the Recovery Act, 3) Financial
                                                                                               Management                                                                     Management reporting requirements under
                                                                                               Requirements                                                                   Section 1512 of the Recovery Act, and 4) Contract
                                                                                                                                                                              procurement compliance for sub-recipients and
                                                                                                                                                                              sub-contractor awards




Page 5 of Work Plan                                                                                                                                                                                                                                State OIG Recovery Act Work Plan FINAL Oct 2010.xlsx
